                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 113010006                                                                  Page 1 of 1



                 NSF's Office of Inspector General was alerted to a matter concerning a contracting
                  1
         company that may have misappropriated funds used for travel and reimbursement. This matter
         was investigated to determine whether or not this allegation could be substantiated. A thorough
         investigation revealed that the contracting company did not violate any federal contracting
         regulations. However, internal concerns within NSF regarding contract oversight were uncovered
         through the investigation. These matters were addressed to NSF management for appropriate
         action.

         Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
